TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Vendors Had Millions of Dollars
                                of Federal Tax Debt



                                      September 25, 2013

                              Reference Number: 2013-10-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


VENDORS HAD MILLIONS OF DOLLARS                           *********************1*********************************
OF FEDERAL TAX DEBT                                       ******************1**************************
                                                          TIGTA previously recommended that the IRS

Highlights                                                establish procedures requiring an annual tax
                                                          check for all IRS contractors. The IRS
                                                          disagreed with this recommendation and did not
Final Report issued on                                    implement it. TIGTA continues to believe that
September 25, 2013                                        the IRS should establish procedures requiring
                                                          periodic (annual) tax compliance checks for all
Highlights of Reference Number: 2013-10-116               contractors. Because TIGTA has already
to the Internal Revenue Service Deputy                    recommended expanded tax checks for IRS
Commissioner for Operations Support.                      contractors, no additional recommendations
                                                          regarding IRS vendor tax compliance are being
IMPACT ON TAXPAYERS                                       made at this time.
Federal law prohibits covered agencies from               The IRS had controls in place to prevent
using Fiscal Year 2012 appropriated funds to              suspended and debarred vendors from receiving
enter into a contract or certain transactions with        IRS contracts. These controls generally
an entity that has an unpaid Federal tax liability        appeared effective. However, TIGTA found that
unless the suspension and debarment official              the IRS improperly awarded four new contracts
has considered suspending or debarring the                or exercised additional option years on existing
corporation and determines that further action to         contracts, valued at $2.6 million, to three
protect the interests of the Government is not            vendors that were excluded (suspended) from
required. TIGTA found that IRS contract and               doing business with the Federal Government.
nonprocurement vendors had millions of dollars
of unpaid Federal taxes. When the IRS                     Further, the overall control environment over the
conducts business with vendors that do not                IRS Vendor Master File could be improved.
comply with Federal tax laws, it conveys a                There was insufficient oversight and a lack of
contradictory message in relation to its mission          monitoring over vendor file operation and
to ensure compliance with the tax laws.                   maintenance.
WHY TIGTA DID THE AUDIT                                   WHAT TIGTA RECOMMENDED
The overall objective of this review was to               TIGTA recommended that the IRS determine
determine whether the IRS had adequate                    why its searches did not identify the suspended
controls over the integrity and validity of vendors       vendors within the Excluded Parties List System.
receiving payments from the IRS. TIGTA’s                  In addition, TIGTA made several
review focused on vendor tax compliance,                  recommendations to improve controls over IRS
suspension, and debarment and on controls                 Vendor Master File maintenance and operation.
over the Vendor Master File.
                                                          In their response, IRS management agreed with
WHAT TIGTA FOUND                                          all of our recommendations and plans to take
                                                          corrective actions.
The vast majority of vendors that conduct
business with the IRS meet their Federal tax
obligations. However, TIGTA found that
1,168 (7 percent) IRS vendors had a combined
$589 million of Federal tax debt, of which
$587 million associated with 1,118 vendors
was not part of a current payment plan as of
July 2, 2012. ***********************1**********
***************************1***************************
**************************1****************************
*******************************************************
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Vendors Had Millions of Dollars of
                             Federal Tax Debt (Audit # 201210028)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had adequate controls over the integrity and validity of the vendors receiving payments
 from the IRS. This review was conducted as part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                                  Vendors Had Millions of Dollars
                                                      of Federal Tax Debt




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 7
          Vendor Integrity Controls Could Be Improved ............................................ Page 7
                    Recommendation 1:........................................................ Page 13

          Improved Controls Over Vendor Master File
          Operations and Maintenance Are Needed .................................................... Page 13
                    Recommendations 2 through 4:......................................... Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Outcome Measures............................................................... Page 25
          Appendix V – Management’s Response to the Draft Report ....................... Page 27
                Vendors Had Millions of Dollars
                    of Federal Tax Debt




               Abbreviations

CCR      Central Contractor Registration
CFO      Chief Financial Officer
EPLS     Excluded Parties List System
FAR      Federal Acquisition Regulation
FISCAM   Federal Information System Controls Audit Manual
GAO      Government Accountability Office
IFS      Integrated Financial System
IPS      Integrated Procurement System
IRS      Internal Revenue Service
TIGTA    Treasury Inspector General for Tax Administration
TIN      Taxpayer Identification Number
VMF      Vendor Master File
WebIPS   Web-Integrated Procurement System
                                            Vendors Had Millions of Dollars
                                                of Federal Tax Debt




                                             Background

Prior to Fiscal Year 2012, Federal law did not explicitly address a prohibition against the
awarding of contracts to entities solely because they owed Federal taxes.1 The Consolidated
Appropriations Act of 20122 prohibited covered agencies from using Fiscal Year 2012
appropriated funds to enter into a contract with an entity that has an unpaid Federal tax liability3
or Federal felony conviction unless the suspension and debarment official has considered
suspending or debarring the corporation and determines that further action to protect the interests
of the Government is not required. The Department of the Treasury and Internal Revenue
Service (IRS) guidance also requires its contracting officers to complete checks for tax
indebtedness as part of determination of contractor responsibility prior to contract award.
However, the IRS does not continuously monitor the tax compliance of the contractors after
award. In addition, the IRS does not make a specific, independent determination if
nonprocurement vendors have adequate financial resources and a satisfactory record of integrity
and business ethics or unpaid tax debts, and, therefore, the IRS does not complete tax compliance
checks on any nonprocurement4 vendors. Prior Treasury Inspector General for Tax
Administration (TIGTA) audits found that IRS contracting employees awarded contracts without
completing required tax checks and financial capability surveys, and the IRS did not have an
effective process to ensure that contracting officers’ determinations of present responsibility are
adequately documented.5
According to the Federal Acquisition Regulation (FAR),6 a responsible prospective contractor is
a contractor that meets certain specific criteria, including having adequate financial resources
and a satisfactory record of integrity and business ethics. The FAR7 also requires prospective
contractors to be “otherwise qualified and eligible”—which includes other provisions of law
specifying when contractors are disqualified, ineligible, or excluded from receiving contract
awards.



1
  TIGTA’s audit period was from October 1, 2010, to June 30, 2012, for this review, thus only five months of this
period was covered under the new appropriations law for which Treasury guidance was issued in February 2012.
2
  Pub. L. No. 112-74, 125 Stat. 887.
3
  Tax liability for which all judicial and administrative remedies have been exhausted or have lapsed.
4
  The use of the term “nonprocurement vendors” in this report refers to those identified on page 4 of the report, as
distinguished from participants in nonprocurement transactions in 2 C.F.R. part 180.
5
  TIGTA Ref. No. 2011-10-095, Contract Files Lacked Sufficient Information to Support Determinations of Present
Responsibility (Sept. 2011), and Ref. No. 2010-30-120, Federal Guidelines Do Not Prohibit the Awarding of
Contracts to Contractors With Delinquent Tax Liabilities, (Sept. 2010).
6
  48 C.F.R. § 9.104-1 (May 2011).
7
  48 C.F.R. § 9.4 (May 2011).
                                                                                                            Page 1
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



Before awarding contracts or making purchases, contracting officers and other agency officials
are required to determine that a bidder is registered in the Central Contractor Registration (CCR)
database, an online representations and certifications system, and the Excluded Parties List
System (EPLS), an online database managed by the General Services Administration that
identifies those parties excluded from receiving Federal contracts, certain subcontracts, and
certain types of Federal financial and nonfinancial assistance and benefits.8 Because the CCR
database is primarily a self-certification system with limited independent verification,
registration in the CCR does not guarantee vendor integrity. A party (an individual or business
entity) can be excluded for a variety of reasons, including serious failure to perform to the terms
of a contract or conviction of or indictment for a criminal or civil offense. Such an exclusion can
be for a temporary period pending completion of an investigation or legal proceeding (referred to
as a suspension) or for up to three years once the Government has completed the investigation or
legal proceeding (referred to as a debarment). Generally, excluded parties may complete their
performance on preexisting contracts. However, agencies are required to check the EPLS prior
to making any modifications that add new work or extend the period of performance on an
existing contract. Vendors listed in the EPLS are not qualified for contract changes of this nature
unless a waiver is granted by the head of the agency.
The Government Accountability Office (GAO) and the TIGTA have reported that thousands of
contractors abuse9 the Federal tax system.10 Legislation currently pending before Congress
would prohibit an agency from awarding a contract or grant in excess of the simplified
acquisition dollar threshold ($150,000) unless the prospective contractor or grantee certifies in
writing that it has no seriously delinquent tax debts.11 While the FAR12 requires contractors to
certify to the Government that they are not delinquent on their taxes, the Contracting and Tax



8
  The System for Award Management consolidated and replaced the CCR and the EPLS in July 2012 and aims to
better assist agencies in adhering to FAR requirements. For the purposes of this report, we will refer to these
systems separately as the CCR and the EPLS.
9
  As part of this work, GAO conducted more in-depth investigations of 122 Federal contractors and in all cases
found abusive and potentially criminal activity related to the Federal tax system. These contractors had not
forwarded payroll taxes withheld from their employees and other taxes to the IRS. Willful failure to remit payroll
taxes is a felony under U.S. law. Furthermore, some company owners diverted payroll taxes for personal gain or to
fund their businesses.
10
   GAO, GAO-07-742T, TAX COMPLIANCE: Thousands of Federal Contractors Abuse the Federal Tax System
(April 2007). TIGTA, Ref. No. 2011-30-13, Existing Practices Allowed IRS Contractors to Receive Payments
While Owing Delinquent Taxes (Feb. 2011).
11
   Contracting and Tax Accountability Act of 2013, H.R. 882, 113th Cong. (2013). This bill was passed by the
House of Representatives on April 15, 2013. The simplified acquisition threshold is a level below which
procurement officials do not have to apply certain requirements of the FAR. The threshold is currently $150,000,
with some very limited exceptions. See 48 C.F.R. § 2.101 (Aug. 2012). The Contracting and Tax Accountability
Act of 2013 defines seriously delinquent tax debt as an outstanding Federal tax debt for which a notice of lien has
been filed in public records, with limited exceptions.
12
   48 C.F.R. § 9.104-5 (May 2011).
                                                                                                            Page 2
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



Accountability Act of 2013 would codify that regulation and intends to provide agencies with a
means to verify a contractor’s certification.
In 1997, Congress amended the tax code13 and authorized the IRS to levy specified Federal
Government payments through the Federal Payment Levy Program. The Federal Payment Levy
Program is an automated process that issues tax levies to collect delinquent Federal taxes through
the Financial Management Service from Social Security, Federal agency salaries, retirement, and
contract awards. The IRS implemented the Federal Payment Levy Program in Fiscal Year 2000.
When contracting officers properly complete checks to identify tax indebtedness as part of the
determination of contractor responsibility prior to contract award and notify the IRS Collections
function of any incidences of contractor tax debt, the Federal Payment Levy process can be
applied where appropriate.
The IRS maintains a file of all unpaid assessments. These unpaid assessments are legally
enforceable claims against taxpayers and consist of taxes, penalties, and interest that have not
been collected or abated. For the purposes of this report, we refer to these unpaid assessments as
Federal tax debt. Federal tax debts are generally incurred when a taxpayer files a tax return
without full payment, an IRS audit identifies additional amounts owed, or the IRS makes
adjustments to correct inaccuracies on a return. In addition, Federal tax debts can be identified
as part of IRS enforcement programs. IRS enforcement programs generally identify taxpayers
who fail to: file or timely file required Federal returns, accurately report their taxes, or
voluntarily pay the amount of taxes due. The IRS classifies its total Federal tax debt inventory
into the following four categories:
        Taxes receivable: Assessments that are self-assessed by the taxpayer, an agreed
         examination, a court ruling in favor of the IRS, etc.
        Compliance: Assessments not agreed to by the taxpayer.
        Write-Offs: Assessments that the IRS still has the statutory authority to collect but for
         which there is no collection potential.
        Memo: Assessments that are not receivables according to Federal financial standards,
         including duplicate assessments, assessments due to a fraudulent return filed by a
         taxpayer, assessments involving many tax periods with related and/or intermingled
         issues, and instances in which an examination/appeal will not be resolved for more than
         one year.
Under Federal accounting standards, Federal tax debt requires taxpayer or court agreement to be
considered Federal taxes receivable. Because of this distinction, when we refer to Federal tax
debts in this report we are referring to only those debts that have taxpayer or court agreement and

13
  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                           Page 3
                                            Vendors Had Millions of Dollars
                                                of Federal Tax Debt



are classified by the IRS as taxes receivable or write-offs. Compliance assessments and memo
accounts are not considered Federal taxes receivable because they are not agreed to by the
taxpayers or imposed by a court. We have chosen to rely on these four classification categories
as the most accurate indicator available for determining whether a taxpayer agreed to the unpaid
assessment.
The IRS Vendor Master File (VMF) contains information about vendors that enables them to
engage in contracts, purchase orders, and other noncontract acquisition methods for the purpose
of providing goods and services to the IRS and receiving payment for goods and services
delivered. The VMF includes the following three categories of vendors:
        CCR-registered vendors – Vendors that are required by regulation to be registered in the
         CCR database prior to award of Federal government contracts, basic agreements, basic
         ordering agreements, or blanket purchase agreements. CCR-registered vendors are
         required to update key information in their CCR profile annually. If a vendor has not
         updated its profile within a one-year period (365 consecutive days), then the vendor
         becomes “inactive.” The IRS requires a tax check on CCR-registered vendors prior to
         award and cannot award new contracts to inactive CCR-registered vendors.
        CCR-exempt vendors – Vendors that are not required to register in the CCR because a
         specific contract award meets one of the exceptions in FAR 4.1102(a) and IRS Policy &
         Procedures Memorandum No. 4.11, Central Contractor Registration (CCR), identified by
         the Office of Procurement. CCR exceptions include but are not limited to: (1)
         Governmentwide Purchase cards; (2) classified contracts; (3) military or emergency
         operations; (4) unusual or compelling needs; (5) foreign vendors outside the United
         States; and (6) micropurchases without an electronic funds transfer. These vendors are
         manually entered into the VMF by the IRS. Like CCR-registered vendors, the IRS
         requires a tax check on CCR-exempt vendors prior to award and cannot award new
         contracts to inactive CCR-exempt vendors. However, unlike CCR-registered vendors,
         information about CCR-exempt vendors is not required to be reviewed and updated
         annually.
        Nonprocurement vendors – Vendors that are doing business with the IRS via a method
         other than contract, basic agreement, basic ordering agreement, or blanket purchase
         agreement who are not legally required to register in the CCR database identified by the
         Office of the Chief Financial Officer (CFO) at Beckley Finance Center. Like
         CCR-exempt vendors, these vendors are also manually entered into the VMF by the IRS
         and, although a basic check on the validity of the Taxpayer Identification Number (TIN)14
         is performed, information about nonprocurement vendors is not required to be reviewed
         and updated annually.

14
  A TIN is an identification number used by the IRS in the administration of tax laws. For an individual, a TIN is a
Social Security Number. For a business entity, a TIN is usually an Employer Identification Number.
                                                                                                            Page 4
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



The 16,907 vendors that conducted business with the IRS during our audit period were
comprised of vendors from all three categories. Between October 2010 and June 2012, the IRS
made 728,507 payments totaling $3.2 billion to the 16,907 vendors for goods and services. As
contractors, both CCR-registered and CCR-exempt vendors are generally subject to the FAR and
other established procurement guidelines and contracting requirements. In contrast,
nonprocurement vendors are not subject to these requirements because their goods or services
are not obtained using contract acquisition methods. Specifically, the IRS does not make a
separate, independent determination that nonprocurement vendors have adequate financial
resources and a satisfactory record of integrity and business ethics, or if nonprocurement vendors
have unpaid tax debt.
The IRS’s VMF is maintained within the Integrated Procurement System (IPS), a procurement
system used to track obligations, create solicitations and awards, maintain vendor files, and
generate reports. The IPS interfaces, or connects electronically, to allow the sharing of
information, with the CCR database in order to obtain procurement vendor information. As
previously mentioned, the CCR is the required point of registration for contractors wishing to do
business with the Federal government. The interface between the CCR and the VMF limits
manual input and changes to CCR vendor information made by IRS employees. The VMF is
also used in key aspects of the IRS purchase and payment process such as awarding
procurements, recording receipt and acceptance, and initializing payment processing by the
Integrated Financial System (IFS). The IFS is the IRS’s administrative accounting system that
facilitates core financial management activities.15 Figure 1 shows the relationship between these
various IRS systems.




15
 These activities include the general ledger, budget formulation, accounts payable, accounts receivable, funds
management, cost management, and financial reporting. The IFS was upgraded by the IRS in November 2012.
                                                                                                           Page 5
                                         Vendors Had Millions of Dollars
                                             of Federal Tax Debt




                         Figure 1: IRS Vendor Maintenance Systems




      Source: Our interpretation based on review of internal IRS notices related to the referenced systems
      and discussions with Office of Procurement and Office of the CFO Beckley Finance Center
      managers.

We analyzed data and information obtained from the IRS National Headquarters in the
Agency-Wide Shared Services’ Offices of Procurement, Procurement Policy, and E-Procurement
in Washington, D.C., and Oxon Hill, Maryland, and in the Office of the CFO at the Beckley
Finance Center located in Beckley, West Virginia, during the period September 2012 through
June 2013. We reviewed and tested selected controls over the IRS VMF to determine if they
were adequate to validate the existence and integrity of the vendors receiving payment from the
IRS during this period. We did not determine whether IRS contracting officials performed tax
checks prior to award or referred any instances of noncompliance for consideration for
suspension or debarment, and we did not examine the effectiveness of the Federal Payment Levy
Program as part of this review. However, a follow-on audit to review the IRS’s compliance with
the requirements of the Consolidated Appropriations Act of 2012 is planned.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit


                                                                                                         Page 6
                                    Vendors Had Millions of Dollars
                                        of Federal Tax Debt



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 7
                                            Vendors Had Millions of Dollars
                                                of Federal Tax Debt




                                       Results of Review

Vendor Integrity Controls Could Be Improved
The vast majority of vendors that conduct business with the IRS meet their Federal tax
obligations. However, we found that IRS made payments to vendors with millions of dollars of
Federal tax debt and to three vendors that had been excluded (suspended) from doing business
with the Federal Government. Ensuring the validity and integrity of vendors is a key element of
preventing fraud and abuse. During our audit period, the IRS made millions of dollars16 of
payments to 1,168 vendors that collectively had $589 million in agreed-to Federal tax debt, of
which $587 million was not part of a current payment plan as of July 2, 2012.17 ****1*****
**************************************1***************************************
***************************************1**************************************
******1*******.18 Although controls were in place and generally effective, the IRS awarded
four new contracts or made contract modifications to existing contracts to exercise an additional
option year totaling $2.6 million to three vendors that were excluded (suspended) from doing
business with the Federal Government.

Vendors had Millions of Dollars of Federal tax debt
Of the 16,907 vendors that received payments from the IRS during our audit period, we found
that 1,168 vendors (7 percent) had $589 million in agreed-to Federal tax debt as of July 2, 2012.
These 1,168 vendors received approximately $741 million in payments from the IRS between
October 1, 2010, and June 30, 2012. Figure 2 shows the distribution of total Federal tax debt by
the size of the various debts.




16
   The IRS made $741 million in payments to 1,168 vendors that had agreed-to tax debt. It is important to note that
in some instances the vendor owed a very large tax debt and only received a relatively small amount in payments
from the IRS. In other instances, the vendor received a large amount in payments and had a very small tax debt.
17
   These 1,168 vendors were associated with 864 TINs. In other words, one TIN might be associated with multiple
vendors in the VMF. While our tax compliance analysis was performed based on vendors’ TINs, we are reporting
information based on the number of vendors. Information on these Federal tax debts is as of July 2, 2012, because
this is the most recent date that data were available at the time our analysis was performed. Under Federal
accounting standards, Federal tax debt requires taxpayer or court agreement to be considered Federal taxes
receivable. Because of this distinction, in this report, when we refer to Federal tax debts, we are referring only to
those debts that have taxpayer or court ordered agreement.
18
   *************1*****************.
                                                                                                              Page 8
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



                      Figure 2: Size of Federal Tax Debt of Vendors by TIN




Source: Our analysis of the IRS unpaid assessment file.19

Of these 1,168, as of July 2, 2012, only 50 vendors with Federal tax debt totaling over $2 million
were on a current payment plan to address their tax debt.20 The IRS considers a taxpaying entity
to be tax compliant if the entity is on a current, valid payment plan for Federal taxes due. Of the
1,168 vendors, 1,118 vendors (96 percent) with Federal tax debt totaling over $587 million were
not on current payment plans and were therefore delinquent as of July 2, 2012.21 *****1******
***********************************1******************************************
***********************************1******************************************
*****1*******. Of the 1,118 vendors not on a payment plan, only 144 were CCR-registered
vendors; the remaining 974 were CCR-exempt or nonprocurement vendors. CCR-registered
vendors with unpaid taxes not on a payment plan received $471 million, while CCR-exempt and
nonprocurement vendors with unpaid taxes not on a payment plan received $263 million from
the IRS.22




19
   Information is as of July 2, 2012.
20
   These 50 vendors on payment plans were associated with 43 TINs. Because payment plans are entered into at the
TIN level, the greatest possible number of payment plans is 864 (not 1,168).
21
   These 1,118 vendors were associated with 821 TINs.
22
   Currently, the IRS does not place the same tax compliance requirements on nonprocurement vendors as it does on
CCR-registered or CCR-exempt vendors (the latter two must be current, including any payment plans, on all
agreed-to Federal taxes receivable).
                                                                                                         Page 9
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



The 1,118 vendors with Federal tax debt that were not on a payment plan had delinquent Federal
tax debts ranging from just over $100 to $525 million.23 As of July 2, 2012, the length of time
that this delinquent Federal tax debt remained outstanding ranged from seven days to four or
more calendar years since the date the Federal tax debt was assessed. Figure 3 shows the
distribution of total delinquent Federal tax debt by the length of time outstanding.
              Figure 3: Details on the Period of Delinquency for IRS Vendors
                                   Not in a Payment Plan

          Length of Time Since the Delinquent                       Total Assessment   Total Number of
         Federal Tax Debt Was Initially Assessed                      (in millions)     Vendor TINs
     180 days or less                                                      $16                434
     181 days to less than 1 calendar year                               $546                 115
     1 calendar year to less than 2 calendar years                         $12                144
     2 calendar years to less than 3 calendar years                         $2                 44
     3 calendar years to less than 4 calendar years                         $1                 26
     4 calendar years or more                                              $10                 58
                                                   Total                 $587                 821
                                                               24
     Source: Our analysis of the IRS unpaid assessment file.

We determined that the types of tax liability included corporate and unemployment taxes, payroll
and withholding taxes, individual income taxes, and miscellaneous civil penalties. As of July 2,
2012, the 50 vendors with the most Federal tax debt outstanding owed $572 million collectively
to the IRS, of which $570 million was not part of a payment plan. These 50 vendors received
approximately $125 million in payments from the IRS.
          36 (72 percent) were CCR-exempt or nonprocurement vendors.
          14 (28 percent) were CCR-registered vendors. However, CCR-registered vendors
           received 98 percent of the $125 million in payments and were therefore paid more
           overall than CCR-exempt and nonprocurement vendors combined.
We further researched the tax histories of the 50 vendors with the most Federal tax debt
outstanding and found that:25
          ************1***************************************.

23
   In performing our analysis, we eliminated any tax debts of less than $100. *******************1******
**********************1*********************************.
24
   Information is as of July 2, 2012.
25
   A single vendor can have more than one characteristic described here; therefore, these numbers are not
cumulative.
                                                                                                      Page 10
                                            Vendors Had Millions of Dollars
                                                of Federal Tax Debt



        ***********1***************.
        8 vendors had current liens in place.
        4 vendors had gone out of business as of April 2013.
        3 vendors had delinquent tax liabilities that had been written off by the IRS as
         no longer collectable.
        14 vendors had been referred for tax examination.
        26 vendors were currently being audited by the IRS.
        **************************1*********************************************
         ******1**.26
        5 vendors had been assessed penalties related to tax filing inaccuracies for which
         they were fined up to 40 percent of the amount they underreported to the IRS.
        9 vendors had been fined for failing to timely file a return.
The IRS stated that it sometimes does not have a choice in the vendors it must do business with.
For instance, the IRS told us that it routinely issues summons to specific financial intuitions for a
particular taxpayer to obtain records as part of its tax administration processes and must pay a fee
for obtaining these records. The IRS stated that it must also pay filing fees to State and county
governments in order to file tax liens. Thus, even if these entities have unpaid tax debt, the IRS
must still use their services. According to the IRS, 863 vendors (77 percent) of the
1,118 vendors not on current payment plans with Federal tax debt totaling over $587 million
provided these types of services to the IRS. The remaining 255 vendors had $548 million in
delinquent tax debt.27 **********************1*************************************
****************************************1*************************************
****1****.28
Numerous entities, including Congress, the Civilian Agency Acquisition Counsel, the Defense
Acquisition Regulations Council, and the GAO have acknowledged the importance of delinquent
tax debts in the consideration of contract awards. However, the IRS does not make a separate,
independent determination whether nonprocurement vendors have adequate financial resources
and a satisfactory record of integrity and business ethics, or unpaid tax debts, and therefore does
not complete any tax compliance checks on nonprocurement vendors. Enhancement of vendor
requirements to pay their taxes could increase vendor tax compliance, thereby increasing Federal

26
   *********************************1********************************************************.
27
    Because one TIN could be associated with multiple vendors, only if all vendors associated with a particular TIN
were involved in summons and lien activity did we remove them from this calculation. These 255 vendors were
associated with 177 TINs.
28
   ***********************1******************************.
                                                                                                           Page 11
                                             Vendors Had Millions of Dollars
                                                 of Federal Tax Debt



revenue. Perhaps of greater significance is the negative perception that is created when the IRS
conducts business with vendors that do not comply with Federal tax laws. TIGTA previously
recommended that the IRS should establish procedures requiring an annual tax check for all IRS
contractors. IRS management disagreed with this recommendation and did not implement it.
TIGTA continues to believe that the IRS should establish procedures requiring periodic (annual)
tax compliance checks for all contractors.29 Because we have already recommended expanded
tax checks for IRS contractors, we are making no additional recommendations regarding IRS
vendor tax compliance at this time.

The vendor TIN matching program generally worked effectively
Of the 16,907 vendors that received payments from the IRS, we determined that 16,847
(99.6 percent) had names and TINs in the VMF that matched those on record with the IRS. We
identified 60 vendors with missing or invalid TINs that received $15.2 million in payments from
the IRS during our audit period. Of these, 39 records were missing a TIN (the TIN field was
blank). In addition, we found 21 invalid TINs. The IRS considers a TIN to be valid if both the
TIN and the name associated with that TIN match those that are on file in IRS records.
According to IRS internal guidance for CFO payment technicians, a proper invoice requires
certain key data to be present, such as a TIN.30
For the 21 vendors for which we determined that the TIN was invalid based on our initial
analysis, we used the online IRS TIN validation portal, the same portal used by VMF users to
verify a TIN, and the IRS Integrated Data Retrieval System31 to research these TINs further. In
some cases, the results of our research were different.32 When there was a discrepancy between
the system research results, we deferred to the Integrated Data Retrieval System, which serves as
the primary tool for IRS employees to research taxpayer accounts and tax returns. When we
inquired specifically about the 60 vendors we identified with missing or invalid TINs, we found
that 55 (92 percent) were for CCR-exempt foreign vendors not required to have a TIN or
for State and local governments that were entered into the VMF prior to the institution of the
TIN matching program. One record related to an interagency agreement. The remaining four
records included one record for which the IRS entered the TIN incorrectly and three records for
which the IRS had no records supporting that a TIN match was performed.

29
   As a further step to facilitate the IRS’s collection of tax debts, the contracting officer must notify the Director,
Collection Policy, of the open market or other agency award of a contract to a contractor identified as having a
Federal tax debt or to a contractor that has proposed a subcontractor identified as having a Federal tax debt in order
to facilitate the IRS’s collection of that debt
30
   The TIN is not required by the IRS on invoices to issue payment for the following essential services: cell phones,
liens, locator services, pagers, parking, seizures, administrative summons, telephones, and utilities.
31
   An IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
32
   The IRS TIN validation portal identified 18 TINs as invalid, whereas the Integrated Data Retrieval System
identified 21 TINs as invalid. We believe that the Integrated Data Retrieval System data were more current and
reliable.
                                                                                                              Page 12
                                         Vendors Had Millions of Dollars
                                             of Federal Tax Debt



Three IRS vendors were listed as excluded parties, but received $2.6 million in
new contract awards or contract modifications to existing contracts
The majority of vendors that received a payment from the IRS between October 1, 2010, and
June 30, 2012, were not excluded from doing business with the Federal Government at the time
the IRS awarded a contract or exercised an option on an existing contract. However, the IRS did
improperly award four new contracts or modify existing contracts to exercise an additional
option year totaling $2.6 million to three vendors that were excluded (suspended) from doing
business with the Federal Government.33 Upon reviewing IRS contract files for the contract
histories of these three vendors, in two instances we did not find documentation in the contract
file to indicate that contracting officers had complied with a FAR34 requirement to check the
EPLS before exercising an option on an existing contract or awarding a new contract for
$2.5 million and $8,900, respectively. In the remaining two instances, we did find
documentation in the contract file to indicate that IRS procurement officials had checked the
EPLS, but the system failed to reveal the exclusions that were present. Consequently, these
vendors received contracts for $47,000 and $4,000. The GAO previously found that when
agency contracting officials used the EPLS to search for companies by name, there was no
guarantee that a search would reveal a suspension or debarment.35 The GAO found that, unlike
other search engines, the name search in the EPLS must literally be exact or the suspension or
debarment would not be identified. As a result of IRS contracting officials’ not following FAR
requirements and due to potential weaknesses in the EPLS system, three contractors that were
suspended from doing business with the Federal Government were improperly awarded new
contracts or received modifications to their existing contracts.

All instances where vendor bank information matched IRS employee bank
information were related to valid travel expenses
We identified all vendors (persons or entities) receiving payments from the IRS during the period
October 1, 2010, through June 30, 2012. We conducted an analysis to identify instances where
vendor banking information for payments made by the IRS during our audit period matched any
banking information for IRS employees who were on board as of March 20, 2012. We identified
39 payments totaling $12,537 that were made to 29 IRS employees. However, we subsequently
verified that for all instances where vendor banking information was the same as IRS employee
banking information, there were manual travel vouchers filed for valid travel expenses or other
valid miscellaneous items. When IRS employees require reimbursement for a valid business


33
   If a vendor was paid by the IRS outside of the period between October 1, 2010, and June 30, 2012, we did not
determine whether the contractor was excluded at the time IRS awarded a contract or exercised an option on an
existing contract.
34
   48 C.F.R. § 9.4 (May 2011).
35
   GAO, GAO-09-174, EXCLUDED PARTIES LIST SYSTEM: Suspended and Debarred Businesses and Individuals
Improperly Receive Federal Funds (Feb. 2009).
                                                                                                      Page 13
                                     Vendors Had Millions of Dollars
                                         of Federal Tax Debt



purpose, they must be included in the VMF as a nonprocurement vendor in order to receive a
payment.

Recommendations
Recommendation 1: The Chief, Agency-Wide Shared Services, should share with the
General Services Administration the two instances identified in this report where EPLS searches
did not identify suspended contractors in order to determine why the IRS searches of the EPLS
did not identify the excluded parties. Based on the results of this collaboration, IRS policies and
procedures for reviewing and documenting EPLS searches should be updated, if necessary.

       Management’s Response: The IRS agreed with this recommendation and stated that
       it will engage with the appropriate party within the General Services Administration to
       share the information regarding the two identified instances where a vendor search did
       not reveal accurate results in the EPLS. Procedures for reviewing and documenting
       EPLS searches will be reviewed and updated, if appropriate.

Improved Controls Over Vendor Master File Operations and
Maintenance Are Needed
The overall controls concerning the VMF could be improved. We identified insufficient
oversight and a lack of monitoring of VMF operation and maintenance and no guidance to direct
VMF group users on the appropriate operation and maintenance of the file. In addition, we
determined that when group users created or made changes to VMF accounts, the information
entered was not independently validated and approved by management, nor were supporting
forms always maintained. Further, we identified control weakness in both system-based and
manual controls that track changes made to IRS vendor information. Although tracking of user
access may have improved as the result of a system upgrade to the IPS, the IRS did not have any
formalized policies and procedures for the selection and training of employees who were
provided access to the VMF. Finally, the IRS does not conduct regular reviews of vendor
information in the VMF or impose annual information update requirements on certain types of
vendors.

Policies and procedures specific to VMF maintenance are lacking
A lack of operational policies and procedures specific to VMF maintenance was acknowledged
by the Office of Procurement and CFO personnel. According to the Federal Information System
Controls Audit Manual (FISCAM), key controls over personnel activities are formal operating
procedures which consist of detailed, written instructions that are followed during the
performance of work. Policies and procedures for master data maintenance should be
documented and should include, but are not limited to, data quality criteria, archival policies, and

                                                                                            Page 14
                                         Vendors Had Millions of Dollars
                                             of Federal Tax Debt



backup procedures in the event of a disaster or data corruption error. Previously, a
Memorandum of Understanding served to govern the relationship between the Offices of
Procurement, including the Offices of Procurement Policy and E-Procurement and the Beckley
Finance Center, with respect to general controls and maintenance of the VMF. This
memorandum was specifically developed for the purpose of delineating the major duties,
responsibilities, and authorities of each organization and the vendor group users for management
of the VMF. It was executed in 2004; however, it is no longer in effect.36 As a result, the roles
and responsibilities of CFO and Office of Procurement employees as they relate to VMF
operation and maintenance are not clearly delineated, and current informal processes and
practices are not followed consistently. Adequate VMF controls are critical for ensuring that
payments are made only to legitimate vendors that have a valid business relationship with the
IRS.

VMF account maintenance lacked management approval, and supporting
documentation was not always maintained

When vendor group users created or made changes to VMF accounts, the vendor information
entered was not reviewed or approved by management and supporting documentation was not
always maintained. As required by the GAO Standards for Internal Control in the Federal
Government,37 significant events need to be clearly documented. The documentation should be
readily available for examination, and all documentation and records should be properly
managed and maintained. In addition, key duties and responsibilities need to be divided or
segregated among different people to reduce the risk of error or fraud. This should include
separating the responsibilities for authorizing transactions, processing and recording them,
reviewing them, and handling any related assets. No one individual should control all key
aspects of a transaction or event.

Periodically, vendors request that changes be made to their information recorded in the VMF
through external forms. CCR-registered vendors must make changes directly through the CCR.
When a CCR-exempt vendor requests to make a change, the vendor submits an external form
requesting that the change to be made, and the requested change is documented on an internal
form and generally routed through the Office of Procurement. Similarly, when a
nonprocurement vendor requests to make a change, the vendor submits an external form
requesting the change be made, and the requested change is documented on an internal form

36
   We reviewed IRS Policy & Procedures Memorandums No. 4.11, Central Contractor Registration, and No. 13.3,
Purchase, Delivery, and Task Order Preparation Guidelines, and determined that they do not provide
comprehensive guidance on the operation and maintenance of the VMF and do not reflect recent system upgrades.
While the CFO, Beckley Finance Center, CAPMAP Accounts Payable Desk Procedures makes some references to
VMF maintenance and related payment procedures, the guidance it provides is not easily understood.
37
   GAO (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1, Standards for Internal Control
in the Federal Government (Nov. 1999).
                                                                                                    Page 15
                                    Vendors Had Millions of Dollars
                                        of Federal Tax Debt



generally routed through the CFO. Currently, neither the Office of Procurement nor the CFO
requires the internal forms to be maintained; however, in practice, the Office of the CFO
maintains the external request forms submitted by nonprocurement vendors. As a result,
management cannot perform any kind of oversight review to determine if the changes made were
accurate and appropriate because supporting documentation does not always exist. In addition, a
field or signature line requiring managerial approval of the change is not present on either the
Office of Procurement or the CFO internal forms. IRS personnel also indicated that changes to
the data in the VMF do not require any managerial review or approval either. As a result, there
is an inadequate segregation of duties due to the lack of management approval and insufficient
oversight of the process.

Weaknesses were identified in the IRS’s ability to track changes to vendor
information
We identified weaknesses in both automated system and manual controls that should track
changes made to IRS vendor information. As part of the controls over IRS vendor information,
there should be an effective auditing and monitoring capability that allows changes to master
data records to be recorded and reviewed when necessary. To do so, activity must be properly
captured and maintained by an automated logging mechanism.
A combination of automated system and manual controls in place for the purpose of tracking
changes made to vendor information include:
      On a daily basis, changes to data associated with CCR-registered vendors are batch
       uploaded through the IPS into the VMF. The IRS is able to track changes to
       CCR-registered vendors through these uploads. We did not evaluate the effectiveness
       of this control.
      When manual changes are made to VMF records for CCR-exempt and nonprocurement
       vendor records by Office of Procurement employees, the changes for seven pairs of key
       fields are automatically captured in a log.
      When manual changes are made to VMF records for CCR-exempt and nonprocurement
       vendor records by CFO employees, the log does not capture changes; however, CFO
       employees are required to provide a written comment in a field within the VMF on the
       nature of the change.
We determined that the IPS automated vendor change log was unreliable. We reviewed
59 forms submitted by vendors requesting changes to information stored in a central file at the
Beckley Finance Center and determined that in 25 instances a change was made to vendor
account data, but the change was not captured in the automated vendor change log. When we
brought these 25 instances to the attention of the IRS, it informed us that the IFS also tracks
changes to vendor data. The IFS relies on a system-based audit trail to track vendor account
changes. However, when we reviewed these same 25 changes made in the IFS, we determined

                                                                                         Page 16
                                      Vendors Had Millions of Dollars
                                          of Federal Tax Debt



that the IFS tracked only 12 changes (48 percent). Thus, we determined that the IFS automated
audit trail tracking was also unreliable, even though this aspect of the system is the final control
before payments are issued.
We also reviewed all 339,731 records in the IPS automated vendor change log made during our
audit period and identified 1,541 (0.5 percent) instances in which the log recorded a change
when no change to key data in a vendor account was made. The IRS stated that the most likely
cause for these changes being logged was due to an extra space or punctuation being
inadvertently added to a record rather than an actual change to key data.
When manual changes are made to VMF records for CCR-exempt and nonprocurement vendor
records by CFO employees, the log does not capture changes; however, CFO employees are
required to add a written comment in a specific VMF field on the nature of the change. The
VMF comments are an important control for tracking changes made to vendor data in the VMF
as they often provide specific information regarding which fields were changed and the purpose
for the change. However, this is a manual control and is subject to human error. Further, since
the comment field is not tracked by the IPS vendor change log, the data could be lost in the event
of an IPS system failure.
We determined that the IPS vendor change log was not capturing all manual changes entered and
was sensitive to minor changes (such as the addition of spaces) that did not reflect changes to
key information. As a result, we determined that the automated system controls that exist to
track changes made to IRS vendor information were unreliable. Although nothing came to our
attention indicating that unauthorized users had accessed the VMF without a valid business
purpose during our review period, we were unable to determine whether any unauthorized users
actually accessed the VMF due to weaknesses in the controls that exist to track changes made to
IRS vendor information.

VMF user access did not have a formal approval process; however, the process
has improved
During our audit period, in some cases, users had direct access to the VMF through the
Web-Integrated Procurement System (WebIPS). The WebIPS lacked an automated process for
requesting, tracking, and documenting access approval. The IRS practice for selecting Office of
Procurement and CFO staff who are provided access to vendor accounts was also informal and
unstructured, and any training provided occurred on the job. The WebIPS was able to generate a
real-time list of vendor group users, but historical listings of these users were not maintained and
no oversight reviews were performed to identify unauthorized user access. As required by the
Standards for Internal Control in the Federal Government, access to records should be limited to
authorized individuals, and accountability for their use should be assigned and maintained. The
FISCAM provides guidance on the maintenance of master data files and specifies as a key
control the establishment of policies and procedures for authorizing access to data and
documentation of such authorizations. Access should be limited to individuals with a valid

                                                                                             Page 17
                                     Vendors Had Millions of Dollars
                                         of Federal Tax Debt



business purpose, controls should enforce the segregation of duties, and unnecessary accounts
should be removed or disabled.
However, as part of a recent upgrade of the WebIPS to the IPS, the general IRS application
approval system has now been integrated and provides an established approval process to grant
users access to the VMF for record creation and modification. As part of this integrated system
approval process, steps are taken to ensure that there is proper segregation of duties that could
potentially mitigate the risk of unauthorized user access from occurring in the future. During our
audit period, the IRS was at risk of individuals gaining access to the VMF without a valid
business purpose due to weak controls over user access. Since the system upgrade fell outside of
our audit scope, we did not evaluate the IRS’s new IPS or the introduction of its integrated
approval processes as part of our review.
The IRS does not conduct regular reviews of vendor information in the VMF or
impose annual information update requirements on CCR-exempt or
nonprocurement vendors
The IRS does not conduct oversight reviews of the VMF to ensure vendor data reliability.
Although the IRS performs limited testing to determine that daily CCR records received are
complete and runs quarterly reports between the IPS and IFS systems to detect and resolve
discrepancies in the coding of vendors as part of the IRS’s role in administering the Health
Coverage Tax Credit program, there are no regularly scheduled oversight reviews performed to
ensure the integrity of the data contained in the VMF. We identified 5,835 CCR-exempt or
nonprocurement vendors whose information had not been updated within a one-year period
(365 consecutive days) that received 249,047 payments totaling $71 million during our audit
period. These vendors were mainly comprised of financial institutions and State and local
governments. If these vendors had been required to comply with CCR requirements, they would
have been rendered inactive after one calendar year, at which time they would have been
required to recertify the accuracy of information contained in the CCR. According to the
FISCAM, periodic reviews of vendor information for accuracy and reliability should be a
component of basic master file maintenance controls. Master records should be reviewed on a
regular basis, duplicates should be identified and deleted or blocked, and inactive accounts
should be identified and blocked. In addition, master records should be complete and valid.
There are currently no policies or procedures to require regularly scheduled oversight reviews to
ensure the integrity of the data contained in the VMF. Furthermore, whereas CCR system
requirements impose annual self-recertification of CCR-registered vendors’ data, the IRS does
not impose similar requirements on CCR-exempt or nonprocurement vendors to ensure that the
information the IRS has is current and accurate. As a result, records for CCR-exempt and
nonprocurement vendors in the VMF may be outdated or inaccurate.




                                                                                          Page 18
                                    Vendors Had Millions of Dollars
                                        of Federal Tax Debt



Recommendations
The Chief, Agency-Wide Shared Services, and Chief Financial Officer should:

Recommendation 2: Develop and implement formal policies and procedures for the
operation and maintenance of the VMF, including steps to verify the suitability of CCR-exempt
and nonprocurement vendor account creation and the validity of changes to vendor account data.
In addition, this policy should clearly delineate the roles and responsibilities of the Office of
Procurement and the CFO VMF group users.

       Management’s Response: The IRS agreed with this recommendation and stated that
       the Chief, Agency-Wide Shared Services, and the CFO will review current practices in
       their respective areas and develop policies and/or procedures to address the operation and
       maintenance of the VMF. These policies and/or procedures will include guidance on
       update procedures, changes to VMF data, and the roles and responsibilities of those
       individuals involved in the process.

Recommendation 3: Ensure that all supporting documentation (internal and external vendor
information change forms) are centrally maintained for the purpose of conducting periodic
oversight reviews of manually entered or edited vendor account information to ensure the
appropriateness, accuracy, and reliability of information in the VMF.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Chief, Agency-Wide Shared Services, and the CFO will review and update
       procedures in their respective areas and will develop a method by which change records
       are maintained and available for review.

Recommendation 4: Enhance IPS and IFS functionality (IPS vendor change log and IFS
audit trails) to address the system weaknesses identified in tracking changes made to vendor
account information.
       Management’s Response: The IRS agreed with this recommendation and stated that
       the Chief, Agency-Wide Shared Services, and the CFO will work together to identify if
       system enhancements are needed to include fields relative to the vendor change log and
       access to the system and will, based on funding availability, implement the enhancements
       based on the outcome of the joint assessment. The IRS stated that it will review and
       modify Beckley Finance Center VMF Desk Procedures related to tracking
       documentation.




                                                                                         Page 19
                                            Vendors Had Millions of Dollars
                                                of Federal Tax Debt



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS had adequate controls over the integrity
and validity of the vendors receiving payments from the IRS. To accomplish this objective, we:
I.      Obtained and reviewed the applicable policies and procedures pertaining to VMF
        maintenance.
        A. Obtained and evaluated the Internal Revenue Manual, Office of Procurement policy
           and procedures memorandums, and desk guides that provide guidance for vendor
           payment controls relative to VMF creation, validation, and maintenance.
        B. Interviewed key IRS personnel from the Office of Procurement and Office of the
           CFO to document current practices and their understanding of the roles and
           responsibilities relative to vendor file maintenance.
II.     Determined whether controls1 over the vendor group users and the VMF were adequate to
        protect the IRS against the creation or activation of questionable vendors.
        A. Evaluated IRS controls for employee access to the VMF.
             1. Obtained a list of the current vendor group users as of September 2012.
             2. Determined how members of the vendor group users (from the Office of
                Procurement and the Office of the Beckley Finance Center) were selected and
                trained.
             3. Determined how access to enact VMF record creation and modifications was
                provided and whether a proper separation of duties was part of that process.
             4. Determined whether access to the VMF was periodically reviewed to ensure all
                accesses were appropriate and for valid business purposes.
             5. Determined if access privileges were removed when employees changed positions
                or were separated from service.
             6. Identified and evaluated the business unit/function roles and responsibilities that
                authorized users had in addition to their role as a vendor group user.

1
  Because we could not rely on the data contained in the WebIPS vendor change log, we were unable to identify the
total population of changes made to IRS vendor information for Steps II.C, II.D, and III.B.1; we were also unable to
take statistically valid samples and were thus limited to taking judgmental samples to draw respective conclusions
regarding IRS internal controls for tracking vendor changes.
                                                                                                           Page 20
                                               Vendors Had Millions of Dollars
                                                   of Federal Tax Debt



           B. Identified management controls for creating, modifying, inactivating, and validating
              the integrity of the vendor information.
                1. Identified and evaluated the process and documentation required for creating or
                   modifying a vendor record and the related validation and approval process.
                2. Identified the specific data elements of the VMF that could be changed by the
                   vendor group users for both procurement and nonprocurement vendors.
                3. Identified the process for vendor data maintenance for purging or archiving
                   inactive vendors.
                4. Identified, obtained, and evaluated reviews conducted by the Office of
                   Procurement and the Beckley Finance Center to ensure the validity of vendors
                   during the period October 1, 2010, through June 30, 2012.
           C. Determined whether changes to CCR-registered vendors were enacted only through
              the WebIPS interface with the CCR database by reviewing the WebIPS vendor
              change log for VMF modifications occurring during the period October 1, 2010,
              through June 30, 2012.
           D. Determined whether changes to the CCR-exempt and nonprocurement vendors were
              properly authorized and approved prior to input by vendor group users.
                1. Identified judgmental samples2 of changes to the CCR-exempt and
                   nonprocurement vendors that occurred during the period October 1, 2010, through
                   June 30, 2012, and determined whether the changes to the VMF were made by
                   authorized users (i.e., matched employees identified as vendor group users to the
                   vendor change log). We selected three judgmental samples consisting of:
                   1) 10 WebIPS vendor log changes, 2) 10 WebIPS vendor log changes to
                   CCR-exempt vendors only specifically made by Office of Procurement vendor
                   group users, and 3) 10 nonprocurement vendor changes selected from an
                   alphabetical centralized file of vendor forms located at the Beckley Finance
                   Center made specifically by CFO vendor group users.
                2. Obtained and analyzed supporting documentation for the changes identified in the
                   same judgmental samples listed in Step II.D.1 to determine whether the IRS
                   maintained documentation supporting the change and whether the modifications
                   were appropriate and approved by the responsible official.




2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 21
                                           Vendors Had Millions of Dollars
                                               of Federal Tax Debt



III.    Evaluated the VMF for vendors receiving payments from the IRS to establish their
        existence and integrity.
        A.       Obtained a data extract from the IPS VMF for active and inactive vendors as of
                 October 25, 2012, and a data extract from IFS payment data for all vendors
                 receiving payments for the period October 1, 2010, through June 30, 2012. We
                 performed data reliability testing to verify the completeness and accuracy of the
                 data for IPS VMF and IFS data. We determined that the data were sufficiently
                 reliable for the purposes of this report.
        B. Identified all vendors receiving payments during the period October 1, 2010, through
           June 30, 2012.
             1. Determined whether vendors’ remittance (payment) information from the IFS
                payment data agrees with the IPS VMF. Because we determined that the WebIPS
                vendor change log data was not sufficiently reliable to complete this test, we
                based our analysis of a judgmental sample of 59 nonprocurement vendor changes
                selected from an alphabetical centralized file of vendor forms located at the
                Beckley Finance Center.
             2. Analyzed IPS VMF information and IFS payment data to identify questionable
                vendors. Our working definition of questionable vendors included:
                 a) Vendors that had integrity issues such as outstanding tax debt (analyzed the
                    IRS unpaid tax debt file as of July 2, 2012, against IPS VMF and IFS files,
                    expanding the scope for the 50 vendors with highest outstanding tax debt).
                 b) Vendors that were listed in EPLS (analyzed the IPS VMF file as of
                    October 25, 2012, against the General Services Administration’s listings with
                    assistance from the American Recovery and Reinvestment Act of 2009’s3
                    Recovery Accountability and Transparency Board).4




3
 Pub. L. No. 111-5, 123 Stat. 115.
4
 The Recovery Accountability and Transparency Board was established by the American Recovery and
Reinvestment Act of 2009. The Recovery Accountability and Transparency Board consists of a Presidentially
appointed chairman and 12 Inspectors General. As part of its operations, the Board has a Recovery Operations
Center that utilizes sophisticated technology and software to review and analyze Recovery-related information for
possible concerns or issues and notifies Inspectors General accordingly. Recovery Operations Center analysts can
also perform additional research and analysis upon request.
                                                                                                          Page 22
                                          Vendors Had Millions of Dollars
                                              of Federal Tax Debt



                 c) Vendors that may not exist or may not have been a legitimate business
                    (analyzed IRS e-services TIN Bulk Matching5 against IPS VMF TIN
                    information).
                 d) Vendors with banking information matching that of IRS employees (analyzed
                    Department of Agriculture National Finance Center6 payroll data against the
                    IFS payment file).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS internal policies and procedures
pertaining to VMF maintenance; the WebIPS vendor change log, IPS VMF vendor data, and IFS
vendor payment data; practices for creating, modifying, and inactivating vendors and their
information in the VMF; and IRS policies, processes, and practices for validating the existence
and integrity of vendors.




5
  The IRS TIN Matching Program, available through the IRS eServices Registration home page, is administered by
the IRS Office of Electronic Tax Administration. The program is intended for payers of Form 1099 series and
matches name and TIN information provided by payees against an IRS database with similar information. The TIN
Matching Program has the option for interactive TIN matching (typically for a single name/TIN) or bulk TIN
matching (typically for multiple names/TINs).
6
  The National Finance Center is a U.S. Department of Agriculture operation that provides payroll, personnel,
administrative payments, accounts receivable, property management, budget, and accounting activities for its own
agency as well as for over 140 other Federal Government agencies, including the IRS.
                                                                                                       Page 23
                                    Vendors Had Millions of Dollars
                                        of Federal Tax Debt



                                                                                 Appendix II

                 Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Heather M. Hill, Audit Manager
Darryl J. Roth, Audit Manager
Dana M. Karaffa, Lead Audit Evaluator
Alberto Garza, Senior Auditor
James S. Mills, Jr., Senior Auditor
Lauren W. Bourg, Auditor
Allison P. Meyer, Auditor
Ryan C. Powderly, Auditor




                                                                                        Page 24
                                  Vendors Had Millions of Dollars
                                      of Federal Tax Debt



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Technology Officer OS:CTO
Commissioner, Small Business/Self-Employed Division SE:S
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Associate Chief Financial Officer for Financial Management OS:CFO:FM
Director, Enterprise Collection Strategy SE:S:CS
Director, Procurement OS:A:P
Director, Collection Policy SE:S:CS:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO
       Director, Procurement OS:A:P




                                                                                    Page 25
                                     Vendors Had Millions of Dollars
                                         of Federal Tax Debt



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 7,461 records in the VMF with unreliable, missing, or
    invalid data (see pages 7 and 13).

Methodology Used to Measure the Reported Benefit:
(1) We analyzed the VMF information as of October 25, 2012, and compared it to IFS payment
    data between October 1, 2010, and June 30, 2012. We identified 60 vendors that were either
    missing TIN information (39 vendors) or had invalid TIN information (21 vendors).
(2) We selected a judgmental sample of 59 vendor forms from the Beckley Finance Center
    central files evidencing changes made to vendor information between October 1, 2010, and
    June 30, 2012. We compared the vendor forms to the IPS vendor change log for the same
    time period to determine when a change was requested by the vendor through submission of
    one or more vendor forms to the IRS but did not appear in the vendor change log. Of the
    59 forms we reviewed, we found 25 instances in which the log did not record a change that
    was identified in supporting documentation.
(3) We also analyzed the vendor change log to identify when a change had been recorded in the
    log between October 1, 2010, and June 30, 2012, but no actual change to key data had been
    made to the vendor account. We did this by determining whether values in any of the seven
    pairs of key fields captured by the log had remained the same even though a change had been
    recorded by the log and identified 1,541 records that met this description.
(4) We analyzed the IPS VMF information as of October 25, 2012, and compared it to IFS
    payment data between October 1, 2010, and June 30, 2012. We identified CCR-exempt
    vendor account records which had not been updated in over a year. CCR-registered vendors
    must comply with the requirement to annually recertify and validate their information in
    order to remain active to receive payment; however, the IRS does not currently require
    CCR-exempt or nonprocurement vendors to follow this same requirement before they can
    receive payments. Because this information has not been updated in over a year, it has the
    potential to be out of date and inaccurate. We identified 5,835 CCR-exempt or
    nonprocurement vendors whose information had not been updated in over a year.

                                                                                          Page 26
                                          Vendors Had Millions of Dollars
                                              of Federal Tax Debt



Type and Value of Outcome Measure:

   Protection of Resources – Potential; four new contract awards or exercised additional option
    years on existing contracts with a total value of $2.6 million to three vendors excluded from
    doing business with the Federal Government (see page 7 and 13).
Methodology Used to Measure the Reported Benefit:
We analyzed the IPS VMF information as of October 25, 2012, and identified vendors that had
been listed as an excluded party in the EPLS by Data Universal Numbering System number.1
We reviewed contract file documentation to locate evidence of searches of the EPLS conducted
by procurement officials prior to the award of a new contract or modification of an existing
contract, expanding the scope for IRS procurement vendors to include their entire contracting
history. If a vendor was paid by the IRS outside of the period between October 1, 2010, and
June 30, 2012, we did not determine whether they were excluded at the time the IRS awarded a
contract or exercised an option on an existing contract.




1
 A Data Universal Numbering System number is a unique character identification number that is mandatory for all
CCR and CCR-exempt vendors, except when the CCR-exempt category is nonprocurement.
                                                                                                       Page 27
              Vendors Had Millions of Dollars
                  of Federal Tax Debt



                                                Appendix V

Management’s Response to the Draft Report




                                                     Page 28
Vendors Had Millions of Dollars
    of Federal Tax Debt




                                  Page 29
Vendors Had Millions of Dollars
    of Federal Tax Debt




                                  Page 30
Vendors Had Millions of Dollars
    of Federal Tax Debt




                                  Page 31
